NO.
IN THE
SUPREME COURT OF THE UNITED STATES

ELJAROD LAWSON, PETITIONER
VS.
STATE OF CALIFORNIA, RESPONDENT

PROOF OF SERVICE
I, MARK D. GREENBERG, declare that on January 5, 2021, as required by
Supreme Court Rule 29, as modified by this Court’s order of April 15, 2020, I have
served the enclosed MOTION FOR LEAVE TO PROCEED IN FORMA
PAUPERIS AND PETITON FOR A WRIT OF CERTIORARI on each party to the
above proceeding or that party’s counsel, and on every other person required to be
served, by use of the electronic filing system known as “Truefiling,” which is used
by the California Courts of Appeal and the California Supreme Court for the filing
and service of documents electronically. Through this system, I have served the
following:
The Attorney General of the State of California
The California Court of Appeal, First Appellate District, Division Three
The California Supreme Court
Petitioner himself was served with a paper copy of these documents placed in a
sealed envelope and deposited in the United States mail with first-class postage
prepaid, properly addressed as follows:

1

Eljarod Lawson, BG4750
California Healthcare Facility Stockton
P.O. Box 32050,
Stockton, CA 95213
I declare under penalty of perjury that the foregoing is true and correct, and that
this declaration was executed on January 5, 2021 at Oakland, California.
/s/ Mark D. Greenberg
Mark D. Greenberg

2

